WAIVER

Supreme Court, U.S.
FILED

APR 2 6 2021

SUPREME COURT OF THE UNITED STATES
No.

OFFICE OF THE CLERK

20-1446

Patricia LaCourse

PAE Worldwide Incorporated, et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:
(Type or print) Name Michael J. Schofield
0 Mr.

0

0 Ms.

Firm

Clark Partington

Address

125 E Intendencia St.

City & State

Pensacola, FL

Phone

850-434-9200

Mrs.

0 Miss

Zip 32502
Email mschofield@clarkpartington.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Arthur A. Wolk; John J. Gagliano; Troy Rafferty
cc:

CM

CLARK PARTINGTON
ATTORNEYS AT LAW

Michael J. Schofield
Board Certified Specialist - Aviation Law
Arbitrator, Mediator, Umpire
Direct (850) 208-7062
mschofield@clarkpartington.com

James R. Green, Jr.
Direct (850) 208-7019
jgreen@clarkpartington.com

April 26, 2021

VIA FEDEX OVERNIGHT DELIVERY
ATTN: Clerk's Office
United States Supreme Court
1 First Street, NE
Washington, D.C. 20543
RE:

Appeal No. 20-1446
LaCourse v. PAE Worldwide Incorporated, et al.
USDC Civil Action No. 3:16-cv-00170-RV-CJK
Our File No. 160307

Dear Clerk:
Enclosed is a Waiver notifying the Court as to Respondents' position regarding
response to the petition for writ of certiorari. Should the Court have any questions please do
not hesitate to contact the undersigned.
Sincerely,
:
1L0,
.

4130

caelejV

MICHAEL J. SCHOFIELD
MJS/tmt
A3089827.DOCX

Enclosure
cc:
Arthur A. Wolk, Esq.
John J. Gagliano, Esq.
Troy Rafferty, Esq.

(850) 4349200 1125 East Intendencia Street, Pensacola, FL 32502 I clarkpartington.com
Pensacola I .Destin I Tallahassee I Santa Rosa Beach I Orange Beach

